        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
The Department of Energy's
Weatherization Assistance Program
under the American Recovery and
Reinvestment Act in the State of
Ohio




OAS-RA-12-13                               June 2012
                                Department of Energy
                                  Washington, DC 20585
                                        June 25, 2012


MEMORANDUM FOR THE ASSISTANT SECRETARY, ENERGY EFFICIENCY AND
               RENEWABLE ENERGY


FROM:                   Rickey R. Hass
                        Deputy Inspector General
                           for Audit Services
                        Office of Inspector General

SUBJECT:                INFORMATION: Audit Report on "The Department of Energy's
                        Weatherization Assistance Program under the American Recovery and
                        Reinvestment Act in the State of Ohio"

INTRODUCTION AND OBJECTIVE

Under the American Recovery and Reinvestment Act of 2009, the Department of Energy's
Weatherization Assistance Program (Weatherization Program) received $5 billion to increase the
energy efficiency of dwellings owned or occupied by low-income persons. Ohio administers its
Recovery Act grant through 58 local agencies. These local agencies are responsible for
determining applicant eligibility, evaluating homes to determine appropriate weatherization
measures, awarding contracts and assigning in-house crews to weatherize homes, and conducting
final inspections of completed homes.

The Department awarded a 3-year, $267 million Recovery Act weatherization grant to the State
of Ohio's (Ohio) Department of Development. Ohio planned to use its Recovery Act funding to
weatherize more than 32,000 homes. As of December 31, 2011, Ohio had weatherized 37,566
homes, exceeding its estimated goal, and had expended almost all of its Recovery Act grant
funds.

Given the significant increase in funding and demands associated with weatherizing thousands of
homes, we initiated this audit to determine whether Ohio had adequate safeguards in place to
ensure the Weatherization Program was managed efficiently and effectively.

RESULTS OF AUDIT

Ohio had not always managed its Weatherization Program efficiently and effectively. We
identified weaknesses that impacted Ohio's ability to meet the objectives of the
Weatherization Program and the Recovery Act. Specifically, Ohio and its local agencies had not
always:

     •   Provided quality weatherization services. In particular, 70 percent of the homes
         reinspected by Ohio during the period of September 2009 through December 2010,
         required additional work to meet Ohio's quality standards, even though they had
                                                 2


         previously passed local agency inspections. Sixteen percent of those homes had not
         passed Ohio's reinspection because of major quality of work issues, or a significant
         number of lesser findings that could compromise the health and safety of the occupants,
         or the homes' structural integrity. Ohio's Office of Inspector General's November 2011,
         Report of Investigation also noted the high frequency of homes requiring action after
         Ohio's reinspection. Further, Ohio had not met the annual requirement to reinspect at
         least 5 percent of each local agency's completed homes. Additionally, Ohio and its
         local agencies had not developed systems to adequately track and summarize systemic
         quality of work issues, and crews and contractors that repeatedly underperformed;

     •   Procured materials, equipment and services in accordance with Federal and State
         requirements. For example, at one local agency, about 96 percent of 372 items
         reviewed had not been purchased through a competitive bidding process or supported
         by cost or price analyses. As a result of these issues, we questioned over $585,000 in
         procurement costs at two of the three local agencies reviewed;

     •   Ensured that recipients were selected for weatherization services based on their priority
         and that they met income eligibility requirements. In particular, we found that a local
         agency selected five weatherization applicants before 205 others who had previously
         been determined to be a higher priority. Another agency relied on income information
         that was more than 12 months old, even though Ohio required that eligibility be based
         on the 12 months of income immediately prior to application; and,

     •   Complied with laws and regulations governing the Weatherization Program, including
         the Davis-Bacon Act for prevailing wage rates, and Federal requirements governing the
         remittance of interest earned on Federal fund advances and the reimbursement of
         allowable costs. As a result of our work, for example, one agency retroactively paid
         employees approximately $55,000 in wages. Another agency remitted approximately
         $76,000 to Ohio in interest earned on advanced funds. We also questioned $23,400 in
         costs charged by another local agency that were not fully supported as required.

The Weatherization Program deficiencies we observed occurred for a number of reasons,
including poor final inspections, staffing issues, inadequate oversight by Ohio, and the failure of
local agencies to either understand or follow Federal and State requirements. For example, Ohio
and its local agencies had not adequately tracked and summarized performance statistics to
identify and address commonly recurring problems or contractors and agencies that repeatedly
underperformed. As discussed in the body of this report, we also identified areas in which local
agencies' and/or Ohio's policies and procedures were not fully consistent with Federal
requirements.

It is imperative that the Weatherization Program is managed to ensure Department requirements
are met; monies are spent with transparency, accountability and for intended purposes; and,
deserving households receive the services to which they are entitled. To their credit, Ohio and
local agencies in our review have already begun to take action to correct previously observed
weaknesses. We have made a number of recommendations designed to improve Ohio's
Weatherization Program.
                                               3


We analyzed Ohio's management of its Recovery Act Weatherization Program and reviewed the
weatherization activities of three local agencies, IMPACT Community Action (IMPACT), the
Community Action Partnership of the Greater Dayton Area (Dayton), and Cuyahoga County of
Ohio Department of Development (Cuyahoga). In September 2011, we issued separate
examination reports on Dayton and Cuyahoga. The reports can be found on our website at
http://energy.gov/ig/calendar-year-reports. The examinations were performed by Lopez and
Company, LLP, an independent public accounting firm under contract with the Office of
Inspector General. The results of these examinations have been incorporated into this report to
provide a statewide summary of findings. While most Recovery Act funds had now been
expended at the time we issued this report, we believe that our recommendations should help
Ohio as it transitions its weatherization activities to a post-Recovery Act environment.

Audit work at the three local agencies discussed in this report has been completed. A review of
other weatherization activities in Ohio, however, had not been finished by the time this report
was issued.

MANAGEMENT REACTION

The Department, Ohio, and IMPACT provided responses to our draft audit report. The
Department stated it will continue to work with Ohio to implement corrective actions and resolve
the issues described in the report. Ohio noted that many of our recommendations have already
been addressed. Additionally, Ohio reported that contracts with its local agencies had been
amended to correct the most recent Davis-Bacon Act related issues. Ohio also stated that it had
reviewed certified payrolls submitted by local agencies and had communicated the correct Davis-
Bacon Act rates to IMPACT and all of its local agencies with the expectation of compliance.

IMPACT reported that the deficiencies noted in our report have been addressed and corrected.
Dayton and Cuyahoga responded separately to examination reports issued in September 2011.
Both Dayton and Cuyahoga agreed with our findings and recommendations.

The comments from management are discussed in more detail in the body of the report, and are
included in Appendix 4.

Attachment

cc: Deputy Secretary
    Associate Deputy Secretary
    Acting Under Secretary of Energy
    Chief of Staff
THE DEPARTMENT OF ENERGY'S WEATHERIZATION ASSISTANCE
PROGRAM UNDER THE AMERICAN RECOVERY AND
REINVESTMENT ACT IN THE STATE OF OHIO

TABLE OF
CONTENTS

Weatherization Efforts

Details of Finding ........................................................................................................................1

Recommendations ........................................................................................................................11

Management and Auditor Comments ..........................................................................................12


Appendices

1. Objective, Scope and Methodology .......................................................................................15

2. Related Reports ......................................................................................................................17

3. Summary of Questioned Costs...............................................................................................19

4. Management Comments ........................................................................................................20
THE DEPARTMENT OF ENERGY'S WEATHERIZATION ASSISTANCE
PROGRAM UNDER THE AMERICAN RECOVERY AND
REINVESTMENT ACT IN THE STATE OF OHIO
WEATHERIZATION   The State of Ohio's (Ohio) Department of Development
EFFORTS          administers its $267 million American Recovery and Reinvestment
                 Act of 2009 (Recovery Act) grant through 58 local agencies. Ohio
                 provides funding directly to 34 of these agencies. For the
                 remaining 24 local agencies, known as "delegate agencies," Ohio
                 utilizes the services of 3 intermediary agencies that distribute
                 Weatherization Assistance Program (Weatherization Program)
                 funds and provide additional oversight. Local agencies are
                 responsible for determining applicant eligibility, assessing homes
                 to evaluate appropriate weatherization measures, awarding
                 contracts and assigning in-house crews to weatherize homes, and
                 conducting final inspections of completed homes.

                 We analyzed Ohio's management of its Recovery Act
                 Weatherization Program and reviewed the weatherization activities
                 of three local agencies, IMPACT Community Action (IMPACT),
                 the Community Action Partnership of the Greater Dayton Area
                 (Dayton) and Cuyahoga County of Ohio Department of
                 Development (Cuyahoga). In September 2011, we issued separate
                 examination reports on Dayton, Community Action Partnership of
                 the Greater Dayton Area – Weatherization Assistance Program
                 Funds Provided by the American Recovery and Reinvestment Act
                 of 2009, (OAS-RA-11-18, September 2011), and Cuyahoga,
                 Cuyahoga County of Ohio Department of Development –
                 Weatherization Assistance Program Funds Provided by the
                 American Recovery and Reinvestment Act of 2009, (OAS-RA-11-
                 19, September 2011). The examinations were performed by Lopez
                 and Company, LLP, an independent public accounting firm under
                 contract with the Office of Inspector General. The results of these
                 examinations have been incorporated into this report to provide a
                 statewide summary of findings.

                 Ohio had made significant progress in implementing its
                 Weatherization Program. As of December 31, 2011, Ohio had
                 weatherized 37,566 homes, exceeding its estimated goal of 32,000,
                 and had expended almost all of its Recovery Act grant funds.
                 However, Ohio had not always managed its Weatherization
                 Program efficiently and effectively. We found problems with the
                 quality of weatherization work; procurement of materials,
                 equipment and services; prioritization and eligibility of applicants
                 for weatherization services; and, compliance with laws, regulations
                 and Weatherization Program guidelines.




Page 1                                                           Details of Finding
                          Quality of Weatherization Work

         Ohio and its local agencies had not always provided quality
         weatherization services. For example, of the 837 homes included
         in our review, 585 homes (70 percent) reinspected by Ohio
         between September 2009 and December 2010 required further
         action to meet Ohio's Weatherization Program standards, even
         though previously passing local agency inspections. This total
         included 136 homes (16 percent) that did not pass Ohio's
         reinspections due to a major quality of work problem, or a
         significant number of lesser findings that, when combined, could
         compromise the health and safety of the occupants or the homes'
         structural integrity.

         We accompanied local agency staff on final inspections of homes
         weatherized by the three agencies reviewed. Of the 12 homes
         inspected, 10 (83 percent) were cited as deficient by local agency
         staff. These homes needed additional work because of improper
         air duct sealing, improperly installed exterior siding, use of the
         wrong carbon monoxide detectors and insufficient weather
         stripping.

         Substandard weatherization work resulted from a combination of
         program weaknesses at the State and local level, including
         inadequate final inspections conducted by local agencies,
         inadequate monitoring by Ohio, insufficient analysis of home
         inspection results and the lack of resources. Specifically:

             •   Final Inspections: Inadequate local agency inspections
                 resulted in poor quality work going undetected and
                 uncorrected. While the inspections we observed at
                 Dayton, Cuyahoga and IMPACT identified workmanship
                 issues, Ohio's reinspection results, discussed above,
                 showed local agencies throughout the State often passed
                 homes that required further action. In other words, homes
                 deemed to be completed by local agency officials often
                 had significant problems that had not been resolved. We
                 also noted local agencies had not always documented final
                 inspection results to ensure instances of poor
                 workmanship had been corrected. For example, 8 of the
                 30 weatherization case files reviewed at Cuyahoga were
                 missing required rework forms when rework was
                 identified by inspectors. We observed, and agency
                 inspectors confirmed, they sometimes verbally
                 communicated the need for rework to contractors rather
                 than documenting the deficiencies in the case file as



Page 2                                                   Details of Finding
             required. In response to this finding, Cuyahoga officials
             told us they will ensure that rework forms will be included
             in inspection files.

             Additionally, contrary to Ohio guidance, we found
             IMPACT had allowed inspectors to perform both the
             initial home assessment and the final inspection. Ohio
             guidelines suggest that having final inspections conducted
             by someone other than the person who did the initial
             assessment can result in better controls over quality.
             However, IMPACT inspectors were allowed to perform
             minor repairs to heating, ventilating and air-conditioning
             systems and to approve and certify the quality of their own
             work. In response to our audit, IMPACT reportedly
             modified its home inspection process to require a crew
             member not associated with the weatherization of the
             home to perform the final inspection.

         •   Monitoring: Inadequate monitoring by Ohio also
             contributed to continued substandard workmanship.
             During the first 2 years of its Recovery Act
             Weatherization Program, Ohio had not met the annual
             requirement to reinspect at least 5 percent of each agency's
             completed homes. Specifically, we found for program
             year 2010, which ended March 31, 2011, Ohio had not
             met the requirement for 15 of its 56 agencies (27 percent).
             This was an improvement over the previous program year
             in which Ohio had not met the requirement for 38 of its 56
             agencies (68 percent) that provided weatherization
             services. For example, in program year 2010, Ohio had
             only reinspected 12 of IMPACT's 611 (2 percent)
             completed units. In December 2011, Ohio implemented
             new processes to better calculate the number of units
             requiring reinspection at each local agency.

         •   Tracking and Summarizing Home Inspection Results:
             Ohio and its local agencies had not adequately tracked and
             summarized home inspection results to assess program
             performance. Neither Ohio nor the local agencies we
             reviewed had tracked the percentage of homes that did not
             pass inspections, or adequately summarized major
             findings from monitoring visits to identify systemic
             quality of work issues. For example, after reviewing
             individual Ohio monitoring reports, we were able to
             identify recurring problems related to substandard
             workmanship. Based on a sample of nearly 300 units,


Page 3                                               Details of Finding
                 which either failed or required rework, we found Ohio had
                 repeatedly required agencies to return to completed homes
                 for the same types of deficiencies. Specifically, 30
                 percent of the units we reviewed required a callback to
                 seal ductwork and 15 percent required agencies to repair
                 or replace venting for clothes dryers. During home
                 reinspections, Ohio officials also noted issues such as the
                 need to clean and tune gas appliances; insulate walls, attics
                 and piping; and, install temperature and humidity gauges.

                 We recognize that Ohio tracked certain aspects of its
                 monitoring efforts, including documenting the number of
                 homes reinspected and client files reviewed, success
                 stories at local agencies, and due dates for deliverables.
                 However, even those efforts were not always useful
                 because of reporting inaccuracies. We found that
                 information in the tracking system often differed from that
                 in Ohio's technical and administrative monitoring reports.
                 For example, of the 81 technical monitoring reports we
                 reviewed, 14 contained a different number of homes
                 reinspected than the number reported in Ohio's tracking
                 system.

             •   Resources: Ohio officials told us they had not attained
                 necessary staffing levels to adequately monitor the
                 program until about a year into their Recovery Act
                 implementation. Ohio officials noted that production was
                 higher than anticipated because of lower than projected
                 per home costs, increasing Ohio's and local agencies'
                 workloads. In addition, local agency officials told us it
                 took time to train and certify newly hired inspectors.

             Ohio Inspector General Concerns Regarding Workmanship

         Consistent with our findings in this area, Ohio's Office of Inspector
         General (Ohio IG) also reported issues concerning the quality of
         work in Ohio's Weatherization Program. In its November 2011,
         Report of Investigation, the Ohio IG noted the high frequency of
         homes requiring action after Ohio's reinspection, noncompliance
         with the 5 percent reinspection requirement, Ohio's failure to
         increase the number and frequency of reinspections when evidence
         arose that agencies were not properly weatherizing homes,
         untimely monitoring reports and failure to take disciplinary or
         corrective action toward agencies failing to properly weatherize
         homes. Additionally, the Ohio IG noted that some of Ohio's
         technical monitors improperly allowed the agencies to select the



Page 4                                                    Details of Finding
         units for reinspection. The Ohio IG made a number of
         recommendations to correct the deficiencies identified. In its
         January 2012 response, Ohio reported its concurrence with the
         recommendations and outlined related corrective actions.

                 Procurement of Materials, Equipment and Services

         Local agencies had not always followed Federal and State
         procurement requirements. For example, Dayton could not
         provide evidence that 79 of 119 (62 percent) of the inventory items
         we sampled, totaling about $49,400, had either been procured
         through a competitive bid process or determined to be reasonably
         priced, as required. Federal and State regulations require a
         documented cost or price analysis for every procurement action.
         Additionally, Dayton had not always followed Federal and State
         procurement guidelines for the selection of service contractors.
         We found the agency selected six contractors through sole-source
         procurements without documenting why soliciting bids was not
         feasible or justifying costs totaling $21,400. In total, we
         questioned about $70,800. Dayton officials told us they were not
         aware of Federal and State requirements regarding competitive
         bidding and cost/price analyses. However, as a result of our audit,
         Dayton is developing new policies and procedures, including those
         related to bid solicitations.

         We had similar concerns at IMPACT where the agency could not
         always provide documentation evidencing compliance with
         procurement rules to ensure the best price for materials and
         services was obtained. Ohio's guidelines require that procurements
         in excess of $5,000 be competitively bid unless the requirement is
         specifically waived by Ohio. However, we found that:

             • The agency was unable to provide either bid solicitation or
               cost/price analysis documentation for 356 material items
               totaling $63,300 of the 372 (96 percent) reviewed;

             • The agency had not competitively solicited bids for the
               procurement of spray foam insulation totaling about
               $451,800. Instead, from October 2009 through August
               2011, the agency split the procurement into 92 smaller
               purchases. Each purchase was valued at $4,911.12, an
               amount just under the $5,000 threshold required for
               competitive bidding. In fact, IMPACT made eight separate
               purchases of spray foam insulation in the same week,
               including four on the same day. IMPACT reportedly split
               the procurements because an official did not want to exceed


Page 5                                                  Details of Finding
                the $5,000 threshold which would have required a
                competitive bidding process. However, splitting
                transactions violates accountability and transparency
                requirements of both the Recovery Act and Ohio
                procurement policies that require free and open competition
                for large purchases. After we brought this issue to
                IMPACT's attention, an official told us the agency had
                requested three quotes for a recent spray foam insulation
                procurement that resulted in the per unit price decreasing
                by almost 20 percent and assured us that future
                procurements would be competitively bid; and,

             • IMPACT had not solicited bids for new service contractors
               in 2010, as required by Ohio policies and procedures.
               Officials believed new contractor solicitations were not
               required until the 3-year grant had expired, rather than
               during each program year.

         In total, because Federal and State procurement regulations had not
         been followed, we questioned IMPACT's purchases totaling about
         $515,100.

                      Prioritization and Eligibility of Applicants

         IMPACT had not selected applicants for weatherization services
         based on priorities established by Federal and State guidelines.
         For example, we reviewed case files for 23 applicants whose
         homes were weatherized in January 2011, and found that 5
         applicants had received services before 205 others who had been
         identified as higher priority. Additionally, 69 of 278
         weatherization projects approved for services, as of January 2011,
         had been waiting for more than 1 year and had higher priority than
         others selected. The State had established a point system to
         prioritize applicants in accordance with guidelines. Although
         IMPACT had determined each applicant's priority points, it had
         not used the priority points as the basis for selecting applicants for
         weatherization work. IMPACT officials stated they made an effort
         to select elderly applicants for priority services. However, we
         were told that remaining applicants were selected using various
         selection methods including at random, alphabetically, or "first-
         come, first-served." None of these methods ensured that services
         were allocated based on priorities established by Federal and State
         guidelines.

         Both Federal and State guidelines require agencies to prioritize
         applicants categorized as elderly, disabled, families with children,



Page 6                                                    Details of Finding
         high residential energy users, and households with a high energy
         burden. Although Ohio had developed and published adequate
         prioritization guidelines for its local agencies, it had not ensured
         that IMPACT had implemented these guidelines for the application
         selection process. Without a sound and consistent applicant
         prioritization and selection process, services may not be provided
         to individuals whom the Weatherization Program was most
         intended to serve. In response to our audit, an IMPACT official
         told us that the process has been revised and applicants are now
         being selected based on priority points.

         Additionally, we found that Cuyahoga applicants may have been
         approved for weatherization services based on outdated income
         information. Cuyahoga relied on income information maintained
         by Ohio for determining applicant eligibility. In 12 of the 30 files
         we reviewed, eligibility was calculated using income information
         that was more than 12 months old, even though Ohio requires that
         eligibility be based on the 12 months of income immediately prior
         to application. For the remaining 18 applicant files, we were
         unable to make an income eligibility determination because Ohio
         did not have the documentation. Under guidance issued by the
         Department, Ohio was not required to retain documentation.
         Cuyahoga agreed with the finding and plans to adjust its current
         policy to reverify an applicant's income if more than 8 months
         have elapsed since the date of Ohio's verification.

            Compliance with Laws, Regulations and Program Guidelines

         Ohio and its agencies had not always ensured compliance with
         applicable laws, regulations and program guidelines including the
         Davis-Bacon Act; Office of Management and Budget (OMB)
         Circular A-122, Cost Principles for Non-Profit Organizations;
         Federal Financial Assistance Regulations; Recovery Act; and,
         Ohio Weatherization Program guidelines.

                        Davis-Bacon Act Wage Requirements

         IMPACT had not paid weatherization crews prevailing wages in
         accordance with the Davis-Bacon Act. During the period March
         2010 to March 2011, we found 33 of the 38 weatherization crew
         members were paid, in aggregate, approximately $100,000 less
         than what was required according to certified payrolls. The
         Recovery Act requires that all laborers employed on projects
         funded by the Recovery Act be paid prevailing wages in
         accordance with the Davis-Bacon Act. In addition, wages must be
         paid on a weekly basis and documented through certified payroll
         records.

Page 7                                                    Details of Finding
         Davis-Bacon Act errors were caused by a number of issues.
         According to a July 2010 Department monitoring report, Ohio's
         contracts with its local agencies had not been amended to include
         the latest Davis-Bacon Act wage revisions. For example, Ohio's
         contract with IMPACT was not formally amended to reflect the
         latest Davis-Bacon Act wage revisions until September 2010, even
         though higher wage rates went into effect about 6 months earlier.
         Instead, Ohio communicated the updated Davis-Bacon Act rates
         via email, with an expectation that its local agencies comply with
         the new prevailing wage requirements. However, IMPACT failed
         to revise its wages and continued to underpay workers. Although
         Ohio had reportedly reviewed IMPACT's certified payrolls to
         ensure compliance with Davis-Bacon Act requirements, they had
         not detected the discrepancies in the workers' wages.

         IMPACT officials reported that as a result of our work, they had
         retroactively paid affected employees approximately $55,000 and
         adjusted wages going forward. Officials told us that after
         reviewing their records, they determined that 13 of the 33
         employees had been misclassified on the certified payrolls.
         Specifically, one employee was not a weatherization worker and
         12 employees should have been classified at a lower-wage
         category, one comparable to the level of weatherization work
         actually performed. After adjusting for the misclassification of
         employees, IMPACT recalculated and determined that the
         aggregate underpayment to employees was approximately $55,000
         instead of our original estimate of $100,000 based on certified
         payrolls. We did not evaluate the appropriateness of IMPACT's
         reclassification of employees, an action that should be reviewed by
         Ohio. We notified the U.S. Department of Labor of IMPACT's
         lack of adherence to the Davis-Bacon Act requirements and were
         informed that no further action was necessary.

                               Labor Cost Distribution

         Dayton had not ensured that administrative personnel labor costs
         were adequately documented. Specifically, not all timecards had
         been signed by employees or approved by appropriate supervisory
         personnel, as required by Federal regulations. OMB Circular A-
         122 requires that reports reflect an after-the-fact determination of
         actual employee activity and be signed by the individual employee
         or a responsible, knowledgeable supervisor. However, based on
         our review of 19 timecards for 5 administrative employees, we
         found:




Page 8                                                   Details of Finding
             •   Fourteen timecards lacked employee signatures or
                 supervisory approval; and,

             •   Time cards for three employees did not appear to reflect
                 actual work activity. For multiple periods, timecards with
                 similar numbers of hours were charged to the
                 Weatherization Program.

         Consequently, we questioned $23,400 in administrative labor costs
         charged to the Weatherization Program.

         This issue occurred because Dayton's policies and procedures
         related to timecard preparation and supervisory review did not
         comply with OMB Circular A-122 that requires all timecards have
         employee signatures or approvals by appropriate supervisory
         personnel. Officials believed they were only required to sign
         timecards once a month even though submitted twice a month. As
         a result of our audit, Dayton reportedly implemented policies and
         procedures requiring all timecards to be signed by employees and
         supervisors.

                         Interest Earned on Advanced Funds

         As of June 30, 2011, Ohio had not collected and remitted to the
         U.S. Department of the Treasury (U.S. Treasury) more than
         $130,000 in interest earned on funds advanced for weatherization
         activities. For example, Cuyahoga, the largest interest earner in
         Ohio, had accumulated more than $76,000 in interest. In July
         2011, after we brought the issue to their attention, Cuyahoga
         officials corrected the error and remitted the interest earned.
         Federal regulations require state and local governments to remit
         interest greater than $100 at least quarterly, and nonprofit agencies
         to remit interest greater than $250 annually. Despite Ohio's own
         policy on remitting interest annually, Ohio officials told us they
         believed interest should be remitted at the end of the grant period.

         We also noted Ohio's policy regarding remittance of accrued
         interest was not fully compliant with Federal requirements.
         Specifically, Ohio policy required all local agencies, including
         local governments such as Cuyahoga, to remit interest over $250
         on an annual basis. While Federal regulations allow nonprofit
         organizations to remit interest annually, local governments are
         required to remit interest greater than $100 on a quarterly basis. In
         response to our audit, both Ohio and Cuyahoga reported that
         policies had been revised for consistency with Federal regulations.




Page 9                                                    Details of Finding
                                    Jobs Reported

          Two agencies we reviewed had misreported jobs created. For
          example, because an official inadvertently double counted jobs,
          IMPACT reported creating about 36 more jobs with Recovery Act
          funds than had actually been created. Cuyahoga underreported
          weatherization labor hours on 13 projects and about 700 hours of
          work contracted to a local certified public accounting firm.
          Cuyahoga lacked formal policies and procedures and was not
          aware that the firm's labor hours should have been included in
          reports submitted to Ohio. The Recovery Act requires recipients to
          report the number of jobs created and retained using Recovery Act
          funds. In response to our audit, Cuyahoga reported that it had
          corrected its Jobs Created and Retained Reports to include all
          hours worked and paid for with Recovery Act funds.

                              Client Follow-up Program

          Local agencies had not always followed up with weatherization
          clients, as required, to reinforce energy efficiency actions
          previously agreed upon by the clients. Our review of 60 IMPACT
          and Dayton files, for example, found that staff had followed up
          with clients in only one instance. Ohio requires local agencies to
          contact 25 percent of its clients and document results. Follow-up
          is important to ensure energy gains are realized from actions such
          as lowering thermostat levels, using less hot water in baths and
          showers, and changing the furnace filter once a month during the
          winter.

          Ohio's administrative monitoring visits to IMPACT in April 2010,
          and again in March 2011, underscore our concerns about
          IMPACT's client follow-up practices. As a result of Ohio's March
          monitoring visit, IMPACT officials agreed that client follow-up
          surveys would be mailed to all clients and the returned survey
          results would be placed in the clients' files. Proper implementation
          of the follow-up program would help ensure clients reduce energy
          consumption.

          In response to our audit, both IMPACT and Dayton informed us
          that changes have been made to better track and document follow-
          up with weatherization clients.




Page 10                                                   Details of Finding
Path Forward      Substandard weatherization work can pose health and safety risks
                  to occupants, hinder production and increase costs. It is imperative
                  that the Weatherization Program is managed to ensure Department
                  requirements are met; monies are spent with transparency,
                  accountability and for their intended purposes; and, deserving
                  households receive the services to which entitled. Individually and
                  collectively the problems we identified have the practical effect of
                  limiting the achievement of overall Weatherization Program goals.
                  While Ohio and local agencies have taken action designed to
                  correct previously observed weaknesses, lingering problems
                  remain. Additional action is needed to preserve the integrity of the
                  Weatherization Program.

RECOMMENDATIONS

                  To address the deficiencies we observed during our audit, we
                  recommend that the Assistant Secretary for Energy Efficiency and
                  Renewable Energy:

                       1. Take necessary action to ensure that Ohio:

                                 a.   Reinspects at least 5 percent of the completed
                                      homes weatherized by each local agency
                                      annually;

                                 b.   Tracks and summarizes its monitoring results
                                      to identify systemic work quality issues and
                                      takes appropriate corrective action;

                                 c.   Takes corrective action on violations of Federal
                                      and State procurement rules, including splitting
                                      purchases to avoid soliciting bids;

                                 d.   Reviews IMPACT's actions to reclassify and
                                      adjust worker wages to ensure all necessary
                                      actions have been taken;

                                 e.   Monitors all local agencies for Davis-Bacon
                                      Act compliance and amends grant agreements
                                      in a timely manner, to include Davis-Bacon
                                      Act wage revisions; and,

                                 f.   Revises its policy on local agency remittance
                                      of interest on advances to be consistent with
                                      Federal regulations and ensures interest earned




Page 11                                                          Recommendations
                                      on Federal advances of funds is returned to the
                                      U. S. Treasury as required.

                        2. Take necessary action to ensure that Ohio requires its
                           local agencies to:

                                 a.   Ensure a separation of duties between the
                                      initial home inspector, persons performing
                                      weatherization work, and the final inspector to
                                      allow for a more effective home weatherization
                                      process;

                                 b.   Analyze home inspection results to identify
                                      contractors, inspectors and crew members who
                                      repeatedly underperform and take corrective
                                      action for systemic problems;

                                 c.   Procure materials, equipment and services
                                      according to Federal and State guidelines;

                                 d.   Prioritize recipients of weatherization services
                                      according to Federal and State guidelines;

                                 e.   Monitor and revise certified payrolls as needed
                                      to ensure weatherization crews and contractors
                                      are paid the appropriate prevailing wage;

                                 f.   Ensure all jobs created and retained are
                                      accurately reported to Ohio; and,

                                 g.   Implement a client follow-up program, as
                                      mandated by Ohio to ensure that follow-up
                                      contact with previous clients is performed and
                                      documented.

                        3. Resolve identified questioned costs. See Appendix 3 for
                           a summary of questioned costs referenced in our report.

MANAGEMENT AND     The Department, Ohio and IMPACT provided reponses to our
AUDITOR COMMENTS   draft audit report while Dayton and Cuyahoga responded
                   separately to examination reports issued in September 2011. All
                   responses are included in their entirety in Appendix 4. We revised
                   our report as appropriate to address comments received. A
                   summary of key comments and our responses is provided in the
                   following section.




Page 12                                     Management and Auditor Comments
                        Management Comments (Department)

          The Department concurred with our recommendations and stated it
          will continue to work with Ohio to implement corrective actions
          and resolve the issues described in the report. For example, the
          Department plans to monitor Ohio's progress during an upcoming
          monitoring visit and obtain written confirmation from Ohio that
          outstanding issues are remedied. In addition, the Department is
          working with Ohio to review and resolve all questioned costs.

                     Auditor Response to Department Comments

          The Department's comments were responsive to our
          recommendations.

                           Management Comments (State)

          Ohio noted two concerns related to the conclusions expressed in
          the report. Ohio suggested we revise the report to reflect recent
          improvements and provided comments on the State's compliance
          with the Davis-Bacon Act. Specifically, Ohio reported that
          contracts had been amended to reflect the most recent Davis Bacon
          Act wages, and was later revised to automatically adopt the U.S.
          Department of Labor's most recent updates to the Davis Bacon Act
          wages. Ohio requested that we update the report to note that it had
          communicated the correct Davis-Bacon Act rates to IMPACT and
          all local agencies, with an expectation that the local agencies
          comply with these requirements. Further, it was stated that
          certified payrolls submitted to Ohio had been reviewed.

                        Auditor Response to State Comments

          Ohio's comments were generally responsive to our findings and
          conclusions. As suggested, we revised the report to note that Ohio
          stated that it had already addressed many of our recommendations
          and had communicated Davis-Bacon Act wage rates to local
          agencies. Despite its monitoring efforts, however, Ohio had not
          detected the underpayments made to many IMPACT workers over
          a period of 1 year.

                      Management Comments (Local Agencies)

          IMPACT responded that all deficiencies noted in the report had
          been addressed and corrected. Actions reportedly taken by
          IMPACT included segregating initial assessment and final
          inspection duties, complying with Federal and State procurement



Page 13                                                          Comments
          requirements, improving applicant selection, retroactively paying
          workers prevailing wages, and revamping the client survey
          process. IMPACT also noted that there were delays in
          establishment of Davis-Bacon Act prevailing wage rates. Finally,
          it acknowledged that it may have misunderstood the formula used
          to calculate jobs, due to its complexity.

          In regard to findings on its procurement process, Dayton stated that
          its procurements were approved by the State and that in some
          cases, the issue was lack of documentation rather than not
          following proper procurement procedures. However, Dayton
          officials outlined the corrective actions it was taking to address
          procurement issues, such as writing a policy and procedure manual
          and finalizing an open bidding process to select subcontractors in
          accordance with Federal and State regulations. Further, Dayton
          stated it had developed a new system of tracking and reporting job
          progress, had implemented policies and procedures requiring all
          timecards be signed and had begun tracking client follow-up
          reports.

          Cuyahoga also noted actions that it was taking to address findings
          regarding its Weatherization Program. Specifically, Cuyahoga,
          stated that it had implemented a policy to re-verify applicants'
          income as appropriate, revised its policy to pay interest quarterly,
          developed a tracking system to evaluate contractor performance
          and made improvements in its Davis-Bacon Act reporting.

                   Auditor Response to Local Agencies' Comments

          Local agency comments and actions taken were responsive to our
          recommendations. Each local agency was reportedly taking action
          to address the issues identified in our report. However, IMPACT
          did not address our findings that inspectors were allowed to
          perform minor repairs to heating, ventilating and air conditioning
          systems and to approve and certify the quality of their own work.
          We reiterate the need to ensure a separation of duties between
          persons performing weatherization work and the those conducting
          final inspections. We agree with IMPACT's statement concerning
          delays in establishing the initial prevailing wage rates for the
          Weatherization Program; however, this initial delay had no effect
          on IMPACT's failure to accurately pay its workers according to
          revised Davis-Bacon Act wages from March 2010 to March 2011.




Page 14                                                            Comments
Appendix 1
OBJECTIVE     The objective of the audit was to determine whether the State of
              Ohio (Ohio) had adequate safeguards in place to ensure that the
              Weatherization Assistance Program (Weatherization Program) was
              managed efficiently and effectively.

SCOPE         The audit was conducted between December 2010 and February
              2012. In performance of our audit, we analyzed Ohio's
              Department of Development Management of the Weatherization
              Program and reviewed the weatherization activities of IMPACT
              Community Action in Columbus, OH. Additionally, we contracted
              with Lopez and Company, LLP (Lopez), an independent public
              accounting firm, to conduct examinations of the weatherization
              activities of the Community Action Partnership of the Greater
              Dayton Area (Dayton) in Dayton, OH, and Cuyahoga County of
              Ohio Department of Development (Cuyahoga) in Cleveland, OH.

METHODOLOGY   To accomplish our objective, we:

                  • Interviewed officials from Ohio and local agencies;

                  • Reviewed laws, regulations, policies and procedures
                    pertaining to the Weatherization Program;

                  • Reviewed prior Office of Inspector General (OIG) and U.S.
                    Government Accountability Office (GAO) reports, and
                    other related reports on the Weatherization Program;

                  • Accompanied Ohio and local agency officials on home
                    inspections, and reviewed past Ohio monitoring reports that
                    evaluated the quality of weatherization work and
                    compliance with Ohio's Weatherization Program standards;

                  • Evaluated local agencies for compliance with the Davis-
                    Bacon Act, prioritization and eligibility of weatherization
                    applicants, and justification for procurements of
                    weatherization materials, equipment and contractor
                    services;

                  • Assessed Ohio's progress towards meeting annual
                    monitoring requirements and its general administration of
                    the Weatherization Program; and,

                  • Assessed whether jobs created and retained were accurately
                    reported and whether local agencies were in compliance
                    with Ohio's client follow-up program.



Page 15                                  Objective, Scope and Methodology
Appendix 1 (continued)
                    We conducted this performance audit in accordance with generally
                    accepted Government auditing standards. Those standards require
                    that we plan and perform the audit to obtain sufficient, appropriate
                    evidence to provide a reasonable basis for our findings and
                    conclusions based on our audit objective. We believe the evidence
                    obtained provides a reasonable basis for our conclusions based on
                    our audit objective. Accordingly, the audit included test of
                    controls and compliance with laws and regulations to the extent
                    necessary to satisfy the objective. In particular, we assessed the
                    implementation of the GPRA Modernization Act of 2010 as it
                    relates to the audit objective and found that the Department of
                    Energy (Department) had established performance measures
                    related to the use of the American Recovery and Reinvestment Act
                    of 2009 (Recovery Act) funds for the Weatherization Program.
                    Because our review was limited, it would not necessarily have
                    disclosed all internal control deficiencies that may have existed at
                    the time of our audit. We conducted a limited reliability
                    assessment of computer-processed data and deemed the data
                    sufficiently reliable to achieve our audit objective.

                    In conducting our audit, we relied on the work of Lopez. Lopez's
                    examinations were conducted in accordance with attestation
                    standards established by the American Institute of Certified Public
                    Accountants and the GAO; and, accordingly, included examining,
                    on a test basis, evidence supporting management's compliance with
                    relevant Weatherization Program Federal and Ohio laws,
                    regulations and program guidelines, and performing such other
                    procedures considered necessary in the circumstances. We
                    performed procedures that provided a sufficient basis for using
                    Lopez's work, such as reviewing the qualifications and
                    independence of Lopez and its staff; reviewing Lopez's
                    examination plans, documentation and reports; and, performing a
                    limited amount of testing of Lopez's work. We determined that the
                    scope, quality and timing of the examination work performed were
                    adequate for reliance in the context of our audit objective. Lopez's
                    complete examination reports for Dayton and Cuyahoga can be
                    found on our website at http://energy.gov/ig/calendar-year-reports.

                    Department officials waived an exit conference. We held an exit
                    conference with State of Ohio officials on May 7, 2012.




Page 16                                         Objective, Scope and Methodology
Appendix 2

                                     RELATED REPORTS

Under the American Recovery and Reinvestment Act of 2009, the Office of Inspector General
has initiated a series of audits designed to evaluate the Department of Energy's Weatherization
Assistance Program's internal control structures at the Federal, state, and local levels. During our
audits, we have noted similar findings such as deficiencies in agencies' initial assessments and
final inspections and poor quality in the work of contractors and in-house crews. However, it
must be noted that these issues do not exist in all the states we have reviewed. Our series of
reports include the following:

   •   Audit Report on The Department of Energy's Weatherization Assistance Program
       Funded under the American Recovery and Reinvestment Act for the State of New York
       (OAS-RA-12-07, March 2012)

   •   Examination Report on Saratoga County Economic Opportunity Council, Inc. –
       Weatherization Assistance Program Funds Provided by the American Recovery and
       Reinvestment Act of 2009 (OAS-RA-12-05, January 2012)

   •   Examination Report on Action for a Better Community, Inc. – Weatherization Assistance
       Program Funds Provided by the American Recovery and Reinvestment Act of 2009
       (OAS-RA-11-21, September 2011)

   •   Examination Report on People's Equal Action and Community Effort, Inc. –
       Weatherization Assistance Program Funds Provided by the American Recovery and
       Reinvestment Act of 2009 (OAS-RA-11-20, September 2011)

   •   Examination Report on Cuyahoga County of Ohio Department of Development –
       Weatherization Assistance Program Funds Provided by the American Recovery and
       Reinvestment Act of 2009 (OAS-RA-11-19, September 2011)

   •   Examination Report on Community Action Partnership of the Greater Dayton Area –
       Weatherization Assistance Program Funds Provided by the American Recovery and
       Reinvestment Act of 2009 (OAS-RA-11-18, September 2011)

   •   Audit Report on The Department of Energy's Weatherization Assistance Program under
       the American Recovery and Reinvestment Act in the State of Tennessee (OAS-RA-11-17,
       September 2011)

   •   Audit Report on The Department of Energy's Weatherization Assistance Program
       Funded under the American Recovery and Reinvestment Act for the Commonwealth of
       Virginia (OAS-RA-11-14, August 2011)

   •   Audit Report on The Department of Energy's Weatherization Assistance Program
       Funded under the American Recovery and Reinvestment Act in the State of Indiana
       (OAS-RA-11-13, August 2011)



Page 17                                                                         Related Reports
Appendix 2 (continued)

  •   Audit Report on The Department of Energy's Weatherization Assistance Program under
      the American Recovery and Reinvestment Act in the State of Missouri (OAS-RA-11-12,
      August 2011)

  •   Audit Report on The Department of Energy's Weatherization Assistance Program under
      the American Recovery and Reinvestment Act in the State of West Virginia (OAS-RA-11-
      09, June 2011)
  •   Audit Report on The Department of Energy's Weatherization Assistance Program
      Funded under the American Recovery and Reinvestment Act for the State of Wisconsin
      (OAS-RA-11-07, May 2011)
  •   Audit Report on The Department of Energy's Weatherization Assistance Program under
      the American Recovery and Reinvestment Act for the Capital Area Community Action
      Agency – Agreed-Upon Procedures (OAS-RA-11-04, February 2011)
  •   Audit Report on The Department of Energy's Weatherization Assistance Program under
      the American Recovery and Reinvestment Act for the City of Phoenix – Agreed-Upon
      Procedures (OAS-RA-11-03, November 2010)

  •   Audit Report on Selected Aspects of the Commonwealth of Pennsylvania's Efforts to
      Implement the American Recovery and Reinvestment Act Weatherization Assistance
      Program (OAS-RA-11-02, November 2010)

  •   Audit Report on The State of Illinois Weatherization Assistance Program (OAS-RA-11-
      01, October 2010)

  •   Audit Report on The Department of Energy's Use of the Weatherization Assistance
      Program Formula for Allocating Funds Under the American Recovery and Reinvestment
      Act (OAS-RA-10-13, June 2010)

  •   Preliminary Audit Report on Management Controls over the Commonwealth of Virginia's
      Efforts to Implement the American Recovery and Reinvestment Act Weatherization
      Assistance Program (OAS-RA-10-11, May 2010)

  •   Special Report on Progress in Implementing the Department of Energy's Weatherization
      Assistance Program Under the American Recovery and Reinvestment Act (OAS-RA-10-
      04, February 2010)

  •   Audit Report on Management Alert on the Department's Monitoring of the
      Weatherization Assistance Program in the State of Illinois (OAS-RA-10-02, December
      2010)




Page 18                                                                   Related Reports
Appendix 3

                          SUMMARY OF QUESTIONED COSTS

In our report on the Community Action Partnership of the Greater Dayton Area (Dayton),
Community Action Partnership of the Greater Dayton Area–Weatherization Assistance Program
Funds Provided by the American Recovery and Reinvestment Act of 2009 (OAS-RA-11-18,
September 2011), we previously questioned costs of $94,200 related to procurement of
equipment, materials and services; and, deficiencies in employee timecards. In this report, we
question an additional $515,100 in costs related to procurement activities at IMPACT
Community Action (IMPACT), for an overall State of Ohio total of $609,300. The following
table provides a summary of costs previously questioned in our report on Dayton, and the
additional costs we questioned in this report.


                                                          Questioned
                                   Finding
                                                            Costs
                     Lack of Cost or Price Analysis and      $49,400
                     Competitive Bidding for Equipment
                     and Materials – Dayton
                     Lack of Justification for Sole-         $21,400
                     Source Contracts – Dayton
                     Deficiencies in Administrative          $23,400
                     Timecards – Dayton
                     Total Questioned Costs - Dayton         $94,200
                     Lack of Cost or Price Analysis for      $63,300
                     Materials in Inventory - IMPACT
                     Split purchases to Circumvent          $451,800
                     Threshold for Competitive Bidding
                     – IMPACT
                     Total Questioned Costs - IMPACT        $515,100

                     Total Questioned Costs for State       $609,300
                     of Ohio




Page 19                                                                   Questioned Costs
Appendix 4

             MANAGEMENT COMMENTS




Page 20                            Management Comments
Appendix 4




Page 21      Management Comments
Appendix 4




Page 22      Management Comments
Appendix 4




Page 23      Management Comments
Appendix 4




Page 24      Management Comments
                                                           IG Report No. OAS-RA-12-13

                           CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report which would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                      U.S. Department of Energy Office of Inspector General Home Page
                                           http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
